 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




SOME LOUISIANA FAMILY CHILD DAY
 CARE HOME PROVIDERS DID NOT
  ALWAYS COMPLY WITH STATE
HEALTH AND SAFETY REQUIREMENTS



   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Gloria L. Jarmon
                                                 Deputy Inspector General
                                                    for Audit Services

                                                        August 2014
                                                       A-06-13-00037
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

 The 20 providers that we reviewed did not always comply with applicable State requirements
 to ensure the health and safety of children.


WHY WE DID THIS REVIEW

The Administration for Children and Families provides Federal grants through several programs,
including Head Start and the Child Care and Development Fund (CCDF). In a recent report
summarizing the results of 24 audits of Head Start grantees, we described multiple health and
safety issues that put children at risk. To determine whether similar health and safety risks exist
at childcare providers who received CCDF funding, we audited 20 registered family child day
care home providers (providers) who received CCDF funding in Baton Rouge and New Orleans,
Louisiana. We conducted this review in conjunction with our review of four child day care
centers (report number A-06-13-00036).

The objective of this review was to determine whether providers in Louisiana who received
CCDF funds complied with State requirements and standards related to the health and safety of
children in their care.

BACKGROUND

The CCDF, authorized by the Child Care and Development Block Grant Act and the Social
Security Act, section 418, assists low-income families, families receiving temporary public
assistance, and families transitioning from public assistance to obtain childcare so that they may
work or obtain training or education. Combined funding for the CCDF program for fiscal year
2012, including the block grant’s discretionary fund and the CCDF mandatory and matching
funds, was approximately $5.2 billion.

The State’s Department of Children and Family Services (State agency) is the lead agency and
sponsor of the Child Care Assistance Program (CCAP), which helps low-income families in
Louisiana pay for childcare. Parents may select a childcare provider that satisfies the applicable
State and local requirements, including basic health and safety requirements.

As the lead agency, the State agency is responsible for registering providers. According to the
Child Care and Development Fund Plan for Louisiana FFY [Federal fiscal year] 2012 – 2013,
the State agency registers providers after verifying that applicable requirements are met,
including a passed State Fire Marshal inspection, criminal background checks, current
certifications for cardiopulmonary resuscitation and first aid training, and a physician’s statement
of good health.

WHAT WE FOUND

Providers in Louisiana who received CCDF funds did not always comply with applicable State
requirements on ensuring the health and safety of children in their care. Specifically, each of the


Some Louisiana Family Child Day Care Home Providers Did Not Always Comply
With State Health and Safety Requirements (A-06-13-00037)                                        i
20 providers who we reviewed did not comply with at least 1 of the applicable registration
requirements, and 7 providers did not comply with required criminal background checks. The
State issued disqualification notices to eight providers after we notified them of our results. The
State agency’s oversight was not adequate to ensure that providers complied with State health
and safety regulations.

WHAT WE RECOMMEND

We recommend that the State agency perform periodic onsite visits to providers to ensure
compliance with registration and program requirements, including compliance with criminal
background checks.

STATE AGENCY COMMENTS AND OUR RESPONSE

In its comments on our draft report, the State agency described actions that it has taken to
address our findings. The State agency also said that contractors monitor providers on
site. However, the State agency did not provide any documentation to support that the
monitoring covered health and safety requirements. In addition, the State agency said that it
cannot implement our recommendation because the State is currently transitioning authority over
CCDF to another State department. However, the State agency said that it would share the
recommendation with the succeeding department.




Some Louisiana Family Child Day Care Home Providers Did Not Always Comply
With State Health and Safety Requirements (A-06-13-00037)                                        ii
                                                    TABLE OF CONTENTS


INTRODUCTION ...................................................................................................................... 1

         Why We Did This Review ............................................................................................... 1

         Objective .......................................................................................................................... 1

         Background ...................................................................................................................... 1
               Louisiana Childcare Services ............................................................................... 2
               Related Office of Inspector General Work........................................................... 2
               Child Care Aware of America .............................................................................. 2
               Administration for Children and Families Proposed Regulations........................ 3

         How We Conducted This Review .................................................................................... 3

FINDINGS .................................................................................................................................. 3

         Providers Did Not Always Comply With State Registration Requirements .................... 4
                State Requirements ............................................................................................... 4
                Providers Did Not Comply With State Registration Requirements ..................... 4

         Providers Did Not Always Comply With Required Criminal Background Checks ........ 6
                State Requirements ............................................................................................... 6
                Providers Did Not Comply With Required Criminal Background Checks.......... 6

         Provider Disqualifications and Terminations ................................................................... 6

         State Agency Oversight Did Not Ensure That Providers Complied With
           Health and Safety Regulations ...................................................................................... 7

RECOMMENDATION .............................................................................................................. 7

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
 RESPONSE.............................................................................................................................. 8

OTHER MATTERS.................................................................................................................... 8

          State Requirements .......................................................................................................... 8

          Providers Had Outdoor Play Areas With Hazardous Conditions .................................... 8

          Providers Had Indoor Areas With Hazardous Conditions ............................................... 8




Some Louisiana Family Child Day Care Home Providers Did Not Always Comply
With State Health and Safety Requirements (A-06-13-00037)                                                                                         iii
APPENDIXES

       A: Audit Scope and Methodology ............................................................................... 10

       B: Federal and State Requirements .............................................................................. 11

       C: Photographic Examples of Noncompliance With
           Physical Conditions Requirements ....................................................................... 15

       D: Instances of Noncompliance at Each Family Day Care Home ............................... 19

       E: State Agency Comments ......................................................................................... 20




Some Louisiana Family Child Day Care Home Providers Did Not Always Comply
With State Health and Safety Requirements (A-06-13-00037)                                                                      iv
                                              INTRODUCTION

WHY WE DID THIS REVIEW

The Administration for Children and Families (ACF) provides Federal grants through several
programs, including Head Start and the Child Care and Development Fund (CCDF). In a recent
report summarizing the results of 24 audits of Head Start grantees, 1 we described multiple health
and safety issues that put children at risk. To determine whether similar health and safety risks
exist at childcare providers who received CCDF funding, we audited 20 registered family child
day care providers 2 (providers) who received CCDF funding in Louisiana. 3 We conducted this
review in conjunction with our review of four child day care centers (report number A-06-13-
00036).

OBJECTIVE

Our objective was to determine whether providers in Louisiana who received CCDF funds
complied with State requirements related to the health and safety of children in their care.

BACKGROUND

The CCDF, authorized by the Child Care and Development Block Grant Act (CCDBG Act) and
the Social Security Act, section 418, assists low-income families, families receiving temporary
public assistance, and families transitioning from public assistance to obtain childcare so that
they may work or obtain training or education. Combined funding for the CCDF program for
fiscal year 2012, including the block grant’s discretionary fund and the CCDF mandatory and
matching funds, was approximately $5.2 billion.

The CCDBG Act and Federal regulations require the State to maintain a plan that certifies that
the State has requirements in State or local law to protect the health and safety of children, and
the plan must certify that procedures are in effect to ensure that childcare providers comply with
these requirements (42 U.S.C. §§ 9858c(c)(2)(F) and (G) and 45 CFR §§ 98.15(b)(5) and (6)).

In addition, Federal regulations require States to designate a lead agency to administer the CCDF
program (45 CFR § 98.10).


1
 Review of 24 Head Start Grantees’ Compliance With Health and Safety Requirements (A-01-11-02503, issued
December 12, 2011).
2
  A “family child day care home” is any place, facility, or home operated by any institution, society, agency,
corporation, person or persons, or any other group for the primary purpose of providing care, supervision, and/or
guidance of six or fewer children (Louisiana Revised Statutes 46: §1441.1 A.(4)). Each of the providers in our
review was an individual.
3
 The 20 providers who we audited received CCDF funds for 64 children from December 18, 2012, through April
30, 2013.




Some Louisiana Family Child Day Care Home Providers Did Not Always Comply
With State Health and Safety Requirements (A-06-13-00037)                                                           1
Federal Regulations at 45 CFR §§ 98.11(b)(4) and (6) state that in retaining overall responsibility
for the administration of the program, the lead agency must ensure that the program complies
with the approved Plan and all Federal requirements and must monitor programs and services.

Louisiana Childcare Services

The State’s Department of Children and Family Services (State agency) is the lead agency and
sponsor of the Child Care Assistance Program (CCAP), which helps low-income families in
Louisiana pay for childcare. Parents may select a childcare provider that satisfies the applicable
State and local requirements, including basic health and safety requirements.

As the lead agency, the State agency is responsible for registering providers. 4 The State agency
registers providers after verifying that applicable requirements are met, including a passed State
Fire Marshal inspection, criminal background checks, current certifications for cardiopulmonary
resuscitation and first aid training, and a physician’s statement of good health. From
December 18, 2012, through April 30, 2013, 647 registered providers received funds for 2,338
children.

Related Office of Inspector General Work

The Office of Inspector General, Office of Evaluation and Inspections (OEI), issued an Early
Alert Memorandum Report on July 11, 2013, to ACF entitled License-Exempt Child Care
Providers in the Child Care and Development Fund Program (OEI-07-10-00231). OEI
concluded that States exempt many types of providers from licensing and that these providers are
still required to adhere to Federal health and safety requirements to be eligible for CCDF
payments.

Child Care Aware of America

Child Care Aware of America 5 (CCAA) published a 2012 update, Leaving Children to Chance:
NACCRRA’s Ranking of State Standards and Oversight of Small Family Child Care Homes, that
reviewed and ranked State regulations for small family childcare homes. 6 CCAA stated that
without inspections or monitoring of providers, regulations alone have limited value. CCAA
added that when providers are not inspected, it is difficult for a State to enforce its regulations
and suspend or revoke the licenses of individuals who are not in compliance. CCAA

4
  The State agency also licenses childcare centers, which may care for more than six children and have stricter
requirements, including having more than one unannounced visit annually by the licensing agency (Child Care and
Development Fund Plan for Louisiana FFY [Federal fiscal year] 2012 – 2013).
5
 In 2012, the National Association of Child Care Resource & Referral Agencies (NACCRRA) changed its name to
Child Care Aware of America.
6
  CCAA works with more than 600 State and local childcare resource and referral agencies nationwide. CCAA
leads projects that increase the quality and availability of childcare professionals, undertakes research, and advocates
childcare policies that positively impact the lives of children and families.




Some Louisiana Family Child Day Care Home Providers Did Not Always Comply
With State Health and Safety Requirements (A-06-13-00037)                                                            2
recommended that States increase inspections of providers to at least once a year and that States
reduce the caseload for licensing inspectors to a ratio of 1:50.

Administration for Children and Families Proposed Regulations

ACF recently proposed amending current CCDF regulations to improve childcare health, safety,
and quality. 7 The proposed changes include a requirement that States’ lead agencies perform an
initial onsite monitoring visit and at least one annual unannounced onsite visit of providers who
have received CCDF subsidies. The proposal also requires providers responsible for the health
and safety of children to receive specific and basic training commensurate with their professional
responsibilities. In addition, ACF stated that it strongly encourages lead agencies to establish
requirements for ongoing provider training.

HOW WE CONDUCTED THIS REVIEW

Of the 647 providers in Louisiana who received CCDF funding from December 18, 2012,
through April 30, 2013, we selected 20 providers for our review. We selected 10 providers each
from the cities of Baton Rouge and New Orleans, Louisiana. We conducted unannounced site
visits at these 20 providers from June 17 through 21, 2013.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology, Appendix B contains
details on the Federal regulations and State licensing health and safety requirements that pertain
to providers, and Appendix C contains photographic examples of noncompliance with physical
conditions requirements and of additional safety concerns.

                                             FINDINGS

Providers in Louisiana who received CCDF funds did not always comply with applicable State
requirements on ensuring the health and safety of children in their care. Specifically, each of the
20 providers who we reviewed did not comply with at least 1 of the applicable registration
requirements, and 7 providers did not comply with required criminal background checks. The
State issued disqualification notices to eight providers after we notified them of our results. The
State agency’s oversight was not adequate to ensure that providers complied with State health
and safety regulations.

Appendix D displays a table that contains the instances of noncompliance at the providers we
reviewed.


7
    78 Fed. Reg. 29441 (May 20, 2013).



Some Louisiana Family Child Day Care Home Providers Did Not Always Comply
With State Health and Safety Requirements (A-06-13-00037)                                        3
PROVIDERS DID NOT ALWAYS COMPLY WITH
STATE REGISTRATION REQUIREMENTS

State Requirements

A prospective provider applies for a family child day care home registration by completing,
signing, and submitting an application to the State agency. The application includes a
certification that the applicant will comply with all State and Federal laws, regulations, and other
standards and requirements and will allow unannounced inspections by designated department
staff or representatives. State laws, regulations, and standards include requirements related to the
health and safety of children.

Appendix B contains relevant State registration requirements.

Providers Did Not Comply With State Registration Requirements

Each of the 20 providers who we reviewed did not comply with at least 1 of the applicable
registration requirements. Specifically, these providers did not comply with requirements in the
following areas:

   •   State Fire Marshal inspection standards,

   •   sole provider,

   •   number of children in care, and

   •   provider health and safety requirements.

State Fire Marshal Inspection Standards

The State Fire Marshal is required to inspect providers annually to ensure that they meet the
minimum requirements set by the State agency (Louisiana Revised Statute 40:1563.2). The
inspection includes a review of basic fire safety and sanitation standards. Specifically, the
standards require:

   •   matches, lighters, and other sources of ignition to be out of reach of children;

   •   protective receptacle covers to be installed in all areas occupied by children less than 5
       years old;

   •   a properly charged portable fire extinguisher that is readily accessible; and

   •   flammable liquids to be stored properly.

Of the 20 providers who we reviewed, 19 had 1 or more instances of noncompliance with fire,
safety, and sanitation standards. These included:


Some Louisiana Family Child Day Care Home Providers Did Not Always Comply
With State Health and Safety Requirements (A-06-13-00037)                                        4
      •    1 provider had a lighter on a desk in the living room, and another provider had matches in
           a kitchen drawer without a child safety lock (Appendix C, photograph 1);

      •    15 providers had uncovered electrical outlets in 1 or more rooms, including playrooms,
           dining rooms, living rooms, and kitchens (Appendix C, photograph 2);

      •    1 provider did not have a properly charged portable fire extinguisher; and

      •    2 providers had lighter fluid and chafing fuel in cabinets that were accessible to children
           that did not have child safety locks (Appendix C, photograph 3).

Sole Provider

The provider must be the sole caregiver for the children during the hours registered to provide
care. 8

Three providers allowed other individuals to attend to the children:

      •    One provider allowed two of the children in her care to accompany a missionary down
           the street about ½ block away from the provider’s home.

      •    At the time of our visit, the daughter of one provider watched the children while the
           provider was not in the home.

      •    One provider stated that her daughter watched the children when the provider was not in
           the home. 9

Number of Children in Care

Providers must care for no more than six children, including their own children and any other
children living at their residence who are under age 13, or aged 13 through 17 if disabled. 10

One provider had seven children in her care at the time of our visit, and all of the children were
under the age of 13.



8
    Document L-110 of the Louisiana Department of Social Services Child Care Assistance Manual.
9
 At the time of our visit, the children were in the care of the provider. However, on three prior attempts to visit over
2 days, the provider did not answer the door. The provider stated that the children had been in her daughter’s care
during those times and that she had instructed her daughter not to answer the door.
10
 LAC § 67:III.5107.C.1.i; Document L-110 of the Louisiana Department of Social Services Child Care Assistance
Manual.




Some Louisiana Family Child Day Care Home Providers Did Not Always Comply
With State Health and Safety Requirements (A-06-13-00037)                                                           5
Provider Health and Safety Requirements

Providers must possess a statement of good health signed by a physician or the physician’s
designee. Additionally, providers are required to provide verification of training for
cardiopulmonary resuscitation and pediatric first aid. 11

Fifteen of the twenty providers did not possess a statement of good health signed by a physician.
Additionally, one provider did not have current certifications of training for cardiopulmonary
resuscitation and pediatric first aid.

PROVIDERS DID NOT ALWAYS COMPLY WITH
REQUIRED CRIMINAL BACKGROUND CHECKS

State Requirements

In Louisiana, criminal background checks are required on all adults living at the provider’s
residence, including the provider and any persons employed by the provider in the provider’s
home or on the provider’s home property. 12 Louisiana regulations require the State agency to
request and document required criminal background checks directly from the Louisiana State
Police. 13 Providers must submit authorization forms that allow the State agency to complete
background checks for all required adults. 14

Providers Did Not Comply With Required Criminal Background Checks

Of the 20 providers who we reviewed, 7 had not complied with required criminal background
checks. For the seven providers, nine individuals at these providers’ residences lacked the
required criminal background checks. Of the nine individuals, five lived in the home, three
worked at the home, and one was an overnight guest at the home. For these nine individuals, the
providers had not submitted authorization forms to the State agency requesting completion of
criminal background checks.

PROVIDER DISQUALIFICATIONS AND TERMINATIONS

On July 10, 2013, the State agency issued disqualification notices to eight of the providers
included in our review. The disqualifications were for a 3-month period beginning July 11,
2013, during which the providers were ineligible to participate in the CCAP or to receive CCDF
payments.

11
  Child Care and Development Fund Plan for Louisiana FFY 2012 – 2013, § 3.1.4; Document L-310 of the
Louisiana Department of Social Services Child Care Assistance Manual.
12
     LAC § 67:III.5107.C.1.d.
13
     Id.; Child Care and Development Fund Plan for Louisiana FFY 2012 – 2013, § 3.1.3.d.

14
     Document L-160 of the Louisiana Department of Social Services Child Care Assistance Manual.




Some Louisiana Family Child Day Care Home Providers Did Not Always Comply
With State Health and Safety Requirements (A-06-13-00037)                                              6
In the eight disqualification notices, the State agency cited the following four sections of the
provider agreement as reasons for the disqualifications:

     •   Section 2 of the provider agreement states that a provider is prohibited by regulation from
         keeping more than six children, including all children living in the provider’s home under
         age 13 or aged 13 to 17 if disabled, regardless of the relationship to the provider (one
         provider).

     •   Section 12 requires that a criminal background check be completed on all adults living at
         the provider’s residence, including the provider and any persons employed by the
         provider in the provider’s home or on the provider’s home property (seven providers).

     •   Section 18 requires that childcare be furnished only by the provider identified at the
         provider’s home address (six providers). 15

     •   Section 36 identifies various violations or conditions that may merit disqualifications
         (one provider).

On July 24, 2013, the State agency issued termination notices to two of the eight disqualified
providers because they did not submit updated registration documentation and payments for
required criminal background checks.

STATE AGENCY OVERSIGHT DID NOT ENSURE THAT PROVIDERS
COMPLIED WITH HEALTH AND SAFETY REGULATIONS

The State regulations did not require the State agency to perform unannounced visits to
providers. In the absence of this requirement, the State agency could not readily determine
whether providers adhered to the State health and safety requirements. Currently, the State Fire
Marshal performs the only required annual inspection, and it covers only fire safety and
sanitation standards. This inspection does not cover other health and safety standards including
compliance with criminal background checks. Implementing periodic inspections of providers
for compliance with health and safety requirements would help educate providers on those health
and safety requirements and identify noncompliant providers in a timely manner. During our
audit period, providers self-certified many requirements in the registration process, but the State
agency did not have any procedures to ensure the accuracy of providers’ statements, either
during the initial registration process or for renewals.

                                            RECOMMENDATION

We recommend that the State agency perform periodic onsite visits to providers to ensure
compliance with registration and program requirements, including compliance with criminal
background checks.
15
  During our site visits, we observed children under the care of individuals other than the provider at three
providers. However, the disqualification notices issued by the State agency identified this issue for six providers.



Some Louisiana Family Child Day Care Home Providers Did Not Always Comply
With State Health and Safety Requirements (A-06-13-00037)                                                              7
STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In its comments on our draft report, the State agency described actions that it has taken to
address our findings. The State agency also said that contractors monitor providers on
site. However, the State agency did not provide any documentation to support that the
monitoring covered health and safety requirements. In addition, the State agency said that it
cannot implement our recommendation because the State is currently transitioning authority over
CCDF to another State department. However, the State agency said that it would share the
recommendation with the succeeding department. The State agency’s comments are included in
their entirety as Appendix E.

                                        OTHER MATTERS

STATE REQUIREMENTS

The State does not have specific requirements for the following issues we identified related to
the health and safety of providers. However, we consider these issues reportable because of the
potential to harm the children in the care of these providers.

PROVIDERS HAD OUTDOOR PLAY AREAS WITH HAZARDOUS CONDITIONS

Ten of the twenty providers who we reviewed did not ensure that outdoor premises were clean
and kept free of hazardous conditions. For example:

   •   one provider had exposed nails on the fence and on loose boards on the ground of an
       outdoor play area (Appendix C, photograph 4);

   •   one provider had an exposed crawlspace that allowed children underneath the home
       (Appendix C, photograph 5); and

   •   one provider had a pitchfork, ladder, and wheelbarrow in a play area accessible to
       children (Appendix C, photograph 6).

PROVIDERS HAD INDOOR AREAS WITH HAZARDOUS CONDITIONS

Twelve of the twenty providers did not ensure that indoor areas were clean and free of the
following hazardous conditions:

   •   household chemicals in unlocked cabinets accessible to children (9 providers) (Appendix
       C, photograph 7);

   •   sharp objects, such as knives, in unlocked drawers accessible to children (7 providers)
       (Appendix C, photograph 8);




Some Louisiana Family Child Day Care Home Providers Did Not Always Comply
With State Health and Safety Requirements (A-06-13-00037)                                        8
   •   medicine on counters and in unlocked cabinets accessible to children (2 providers); and

   •   a disassembled crib that was leaning against a wall next to a portable crib and that could
       have fallen on the portable crib.

Additionally, 17 of the 20 providers did not ask for identification before allowing us to access
their home with the children present.




Some Louisiana Family Child Day Care Home Providers Did Not Always Comply
With State Health and Safety Requirements (A-06-13-00037)                                          9
                  APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Of the 647 active providers in Louisiana who received CCDF funding between December 18,
2012, and April 30, 2013, we selected 20 providers for our review based on the population of
cities and towns in Louisiana. This review is part of a series of audits planned by the Office of
Inspector General that address the health and safety of children under the care of providers who
received CCDF funding. We conducted a review of the providers’ records and facilities. To
gain an understanding of the State agency’s operations regarding childcare providers, we limited
our review to the State agency’s internal controls as they related to our objective.

We conducted fieldwork at 20 provider homes, 10 in Baton Rouge and 10 in New Orleans,
Louisiana. We conducted these unannounced site visits from June 17 through 21, 2013.

METHODOLOGY

To accomplish our objective, we:

   •   reviewed applicable Federal laws, State statutes, and regulations for registering providers,
       and the most recent Louisiana CCDF State plan approved by ACF;

   •   interviewed the CCDF program manager to determine how Louisiana monitored its
       providers;

   •   developed a health and safety checklist as a guide for conducting site visits;

   •   conducted unannounced site visits (inspections) at the 20 providers we selected for
       review;

   •   interviewed providers to obtain a listing of household members to determine whether all
       required criminal history background checks had been conducted; and

   •   discussed the results of our review with State registration officials and State agency
       officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Some Louisiana Family Child Day Care Home Providers Did Not Always Comply
With State Health and Safety Requirements (A-06-13-00037)                                       10
                  APPENDIX B: FEDERAL AND STATE REQUIREMENTS

FEDERAL REGULATIONS AND STATE PLAN

45 CFR § 98.1(a)(5)

One of the goals of CCDF is to assist States in implementing the health, safety, licensing, and
registration standards established in State regulations.

45 CFR § 98.41(a)

The lead agency must certify that there are in effect within the State (or other area served by the
lead agency) under State, local, or tribal law, requirements designed to protect the health and
safety of children that are applicable to childcare providers who provide services for which
assistance is made available under the CCDF.

45 CFR §§ 98.11(b)(4) and (6)

In retaining overall responsibility for the administration of the program, the lead agency must
ensure that the program complies with the approved Plan and all Federal requirements and must
monitor programs and services.

Child Care and Development Fund Plan for Louisiana FFY 2012 – 2013

Section 3.1.4.

Providers are required:

     •   to be inspected and approved annually by the Office of State Fire Marshal to assure that
         they meet minimum standards of fire safety and sanitation to help prevent and control
         infectious diseases; 16

     •   to provide proof of current certification in infant/child/adult cardiopulmonary resuscitation
         and pediatric first aid training as a condition of eligibility initially and prior to each
         renewal;

     •   to submit to a criminal background check and have one completed on all adults living in
         or working in the provider’s residence or on the provider’s home property at registration
         and at each renewal;

     •   to report any person 18 or older who moves into their home or begins working in their
         home or on their home property in order for the required criminal background check to be
         completed on that person; and
16
  These “minimum standards” appear to be found at LAC § 28:XLIX.3301.3.e, which covers providers who
participate in the Child and Adult Care Food Program through the U.S. Department of Agriculture.



Some Louisiana Family Child Day Care Home Providers Did Not Always Comply
With State Health and Safety Requirements (A-06-13-00037)                                              11
   •   to have a statement of good health signed by a physician or his designee, which must have
       been obtained within the past 3 years and be obtained every 3 years thereafter.

STATE REQUIREMENTS

Louisiana Revised Statutes

Section 46:1441.1A.(4)

“Family child day care home (FCDCH)” means any place, facility, or home operated by any
institution, society, agency, corporation, person or persons, or any other group for the primary
purpose of providing care, supervision, and/or guidance of six or fewer children.

Section 46:1441.2 A.

All family child day care homes that receive State or Federal funds directly, or indirectly through
the Child and Adult Food Care Program, the Family Support Act of 1988, or any other State or
Federal funding program must be registered.

Section 46:1441.4 C.

A family child day care home must be inspected and approved by the Office of State Fire Marshal
in accordance with the rules and regulations that have been established under subsection A and B
of this section and developed in consultation with the Office of State Fire Marshal.

Section 40:1563.2A.

The State Fire Marshal or his designee must inspect family child day care homes in which there
are fewer than seven children receiving care, whether certified by the Department of Children and
Family Services or the Department of Education.

Section 40:1563.2 B.(4)

The inspections must ensure that the family child day care home meets the minimum
requirements set forth by the Department of Children and Family Services and the Department of
Education.

Louisiana Administrative Code

Section 67:III.5107.C.1

To be eligible for participation, a provider must meet registration requirements as provided in
R.S. 46:1441 et seq.; complete and sign an FCDCH provider agreement; complete a CCAP
application for registration and Form W-9; pay appropriate fees; verify his or her Social Security
number, identification, and residential address; provide proof that he or she is at least 18 years of
age; and meet all registration requirements, including:

Some Louisiana Family Child Day Care Home Providers Did Not Always Comply
With State Health and Safety Requirements (A-06-13-00037)                                          12
   •   submitting verification of current certification in pediatric first aid;

   •   submitting a criminal background check(s) on all adults living at the provider’s residence
       or employed by the provider and working in the provider’s home or on the provider’s
       home property, including the provider, each of which must be received from State Police
       indicating no enumerated conviction if the provider is a relative of a child in care;

   •   possessing a statement of good health signed by a physician or his designee which must
       have been obtained within the past 3 years and be obtained every 3 years thereafter;

   •   possessing a working telephone that can receive incoming calls and that can send outgoing
       calls and that is available at all times in the home in which care is being provided;

   •   caring for no more than six children, including his own children and any other children
       living at his residence, who are under age 13 or age 13 through 17 if disabled.

The Louisiana Child Care Assistance Manual

Document L-110

The provider must be the sole caregiver for the children during the hours he is registered to
provide care and may not hire anyone to care for the children.

Document L-310

To be registered and eligible to receive payments as a provider, the provider must:

   •   care for no more than six children, including his own children and any other
       children living at his residence who are under age 13, or age 13 through 17 if
       disabled;

   •   meet registration requirements of the Department of Children and Family
       Services and be entered as an active provider in the provider directory before
       payments may begin;

   •   be 18 years of age or older to be eligible for participation as an eligible
       provider;

   •   not live at the same residence as the children for whom care is being provided;

   •   have a working telephone in the residence that can receive incoming calls and
       can send outgoing calls and that is accessible at all times;

   •   have on hand a statement of good health signed by a physician or his designee,
       which must have been obtained within the past 3 years;



Some Louisiana Family Child Day Care Home Providers Did Not Always Comply
With State Health and Safety Requirements (A-06-13-00037)                                        13
   •   agree to use only safe children’s products and to remove from the premises any
       products which are declared unsafe and recalled; and

   •   provide verification of training for cardiopulmonary resuscitation and pediatric
       first aid.




Some Louisiana Family Child Day Care Home Providers Did Not Always Comply
With State Health and Safety Requirements (A-06-13-00037)                                 14
     APPENDIX C: PHOTOGRAPHIC EXAMPLES OF NONCOMPLIANCE WITH
                  PHYSICAL CONDITIONS REQUIREMENTS




                   Photograph 1: A lighter on the top shelf of a desk in the
                   living room within reach of children.




                    Photograph 2: Outlets in the play area without protective
                    receptacle covers.




Some Louisiana Family Child Day Care Home Providers Did Not Always Comply
With State Health and Safety Requirements (A-06-13-00037)                       15
                   Photograph 3: Lighter fluid stored in an unlocked kitchen
                   cabinet accessible to children.




                   Photograph 4: A fence panel with protruding nails on the
                   ground in a children’s outdoor play area.




Some Louisiana Family Child Day Care Home Providers Did Not Always Comply
With State Health and Safety Requirements (A-06-13-00037)                      16
                   Photograph 5: An outdoor play area with a crawl space
                   accessible to children.




                   Photograph 6: An outdoor play area with a pitchfork,
                   wheelbarrow, and ladder accessible to children.




Some Louisiana Family Child Day Care Home Providers Did Not Always Comply
With State Health and Safety Requirements (A-06-13-00037)                   17
                   Photograph 7: A kitchen cabinet containing household cleaners
                   accessible to children. The cabinet did not have a child lock.




                   Photograph 8: Sharp objects accessible in a kitchen drawer
                   without a child lock.




Some Louisiana Family Child Day Care Home Providers Did Not Always Comply
With State Health and Safety Requirements (A-06-13-00037)                           18
         APPENDIX D: INSTANCES OF NONCOMPLIANCE AT EACH FAMILY
                             DAY CARE HOME

         Family       State Fire       Sole        Number          Provider    Criminal
          Home         Marshal       Provider         of          Health and  Background
         Number       Inspection                   Children         Safety      Checks
                      Standards                    In Care       Requirements
            1              1              0           0                1          0
            2              4              0           0                0          0
            3              2              0           0                1          0
            4              1              0           0                1          0
            5              1              0           0                1          1
            6              1              0           0                1          1
            7              0              0           0                1          0
            8              2              0           0                1          0
            9              1              0           0                1          0
           10              2              0           1                1          0
           11              1              0           0                0          0
           12              1              1           0                1          1
           13              2              1           0                2          1
           14              2              1           0                0          1
           15              1              0           0                1          2
           16              1              0           0                0          0
           17              1              0           0                1          0
           18              1              0           0                0          0
           19              1              0           0                1          0
           20              1              0           0                1          2
          Totals          27              3           1               16          9

Notice: We provided to the State agency under a separate cover the specific names of the
providers we audited.




Some Louisiana Family Child Day Care Home Providers Did Not Always Comply
With State Health and Safety Requirements (A-06-13-00037)                                  19
                                          APPENDIX E: STATE AGENCY COMMENTS 




           ~.¥ Depcfrtment of
               M Children &                                               627 Norh 4rh S~rcc>t                    27'5 342.0286
                                                                                                                  225.342.8636           Bobby Jinda l. Govcr'lor
                  -111ly Services                                         llatoll Rocrgc LA 70802
                                                                                                              www.dcfs.l a.go~
                                                                                                                                         Suzv Sonnier. 5ecretar;
               Rtnlrfm!- , , -..!tot;~·~ r f ouh'tln;




           June 24, 2014

           Patricia Wheeler
           Regional Inspector General for Audit Services
           Office of the Inspector General - Dept. of Health and Human Services
           8000 Centre Park Drive, Suite 375
           Austin , Texas 78754
           Attn.: Sylvie W itten, Audit Manager

           RE: Office of Inspector General- Draft Report (A-06-13-00037)

           Dear Ms. Wheeler:

           The safety and well-being of children is our highest priority at the Louisiana Department of Children
           and Family Services. We are committed to working with state partners and early chi ldhood
           stakeholders to ensure that Family Child Day Care Home Providers receiving Child Care and
           Development Fund (CCDF) resources are providing high quality and safe child care. The
           Department provides site-based monitoring via contracted services for Family Child Day Care
           Home Providers. The Department currently requires Child Care Resource and Referral Agencies ,
           as part of their contracts, to conduct one announced and one unannounced visit to Family Child
           Day Care Home Providers each year.

           Over the last several years , the early ch ildhood system in Louisiana has undertaken sig nificant
           reforms. Legislation was enacted during the most recent legislative session which will further
           streamline early childhood learning services and transition child care licensing authority and
           management of the Child Care Development Fund from the Louisiana Department of Children and
           Family Services to the Louisiana Department of Education. With this transition of authority and
           required implementation between now and July 1. 2015, DCFS is not positioned to implement
           expanded monitoring recommendations regarding Family Child Day Care Home policies and
           procedures at this time. These recommendations however, will be shared with the Louisiana
           Department of Education.

           The following information is provided In response to issues identified in the draft report:


           Providers Did Not Always Comply With State Registration Requirements
           Submission of a current State Fire Marshal certification is required in order for a Family Child Day
           Care Home Provider to participate in the Child Care Assistance Program. The Fire Marshal's
           inspection serves to ensu re that a provider has met the required facility safety standards. Current
           Fire Marshal inspections had been completed at the time of application and submitted to DCFS for
           all providers who were visited.

           The three sole providers identified in the findings as having allowed other individuals to attend to
           the children were disqualified for a period of 3 months.


           A    [<:>   ,d upper u'"'Y f   "0''''"' •   Ci• 11 l',cl'"'" P•ocrarns ,\"   '~'"'""'"the Cou•rc• on''~ wonat•on lor Clu "'"' '" u   f "' ••' Seov ces
                                                                                                                                                                    "t:1 ~

Some louisiana Family Child Day Care Home Providers DidNot Always Comply
With State Health and Safety Requirements C.f-06-1 3-0003/?                                                                                                                  20
            The provider who was found to have more than six children in care at the time of the audit was
            disqualified for three months and is no longer a registered Family Child Day Care Home Provider.

            One provider was unable to produce verification of current CPR and First Aid training; however
            documentation is contained in DCFS records that the training was completed in February 2013.

            A statement of good health is required for the provider to have on hand as referenced in the
            Provider Agreement (regulation #8); however, documentation of the statement is not required with
            submission of the application or yearly midpoint review.


           Providers Did Not Always Comply With Required Criminal Background Checks
           The provider agreement states that it is the provider's responsibility to report if any other adults or
           children move into the home. and failure to report a new household member or a new employee
           may result in termination as an eligible Child Care Assistance Program provider. The Department
           has no knowledge of persons living in the provider's home or persons working on the provider's
           property, unless this information is self-reported. At the time of the registration, appropriate criminal
           background checks were documented.

           In July of 2013, DCFS issued disqualification notices to 8 of the 20 providers included in the review.
           Subsequently on July 24, 2013, 2 of those 8 providers received termination notices due to
           noncompliance with criminal background check requirements.

           With regard to the on-site visit recommendation, as was p reviously stated, the Department provides
           site-based monitoring via contracted services for Family Child Day Care Home Providers, including
           requirements for both announced and unannounced annual visits.


           State Agency Oversight Did Not Ensure That Providers Complied With Health and Safety
           Regulations
           The Department provides site-based monitoring via contracted services for Family Child Day Care
           Home Providers. The Department currently requires Child Care Resource and Referral Agencies .
           as part of their contracts. to conduct one announced and one unannounced visit to Fami ly Child
           Day Care Home Providers each year. Concerns noted by Child Care Resource and Referral
           Agency staff are forwarded to the Department's Licensing Bureau for resolution if identified during
           these on-site visits.


           Other Matters
           Regarding the outdoor and indoor hazardous conditions that were cited, DCFS requires State Fire
           Marshal approval and monitors such conditions through the on-site inspections by the Child Care
           Resource & Referral Agencies. Appropriate action is taken when reports of hazardous conditions
           are received .

           In response to providers not asking for verification before allowing auditors access, the Provider
           Agreement (regulations #28 and #29) advises providers that they are required to promptly admit
           representatives of all regulatory and/or funding agencies during any hours when children are in care
           and fully cooperate with said representatives in the performance of their duties. DCFS concurs that
           the providers shou ld ask for verification prior to allowing access to their homes while caring for
           children and will remind providers that they should do so.




Some Louisiana Family Child Day Care Home Providers DidNot Always Comply
With State Health and Safety Requirements C.f-06-1 3-0003/?                                                            21
            We appreciate the opportunity to partner with the Office of the Inspector General regarding this
            audit. Documentation of the current status of the items d iscussed herein is available for review at
            your request. We await the opportunity to further discuss our response to this preliminary report or
            to provide additional information regarding any potential findings discussed. Please contact Bridget
            M. Depland, Interim BACS Director, at 225-342-1043 or bndget.depland@la.gov as needed to 

            continue this work. 



            Sincerely,


         ~Jf2-_
           Suzy Sonnier, 

           Secretary 





           cc: 	 Lisa Andry, Assistant Deputy Secretary- Programs
                 Sharon Tucker, Deputy Secretary- Operations
                 Sandra Broussard, Assistant Deputy Secretary- Operations
                 Etta Harris, Undersecretary
                 Kaaren Hebert, Policy Advisor
                 Charlie Dirks, Executive Counsel
                 Tia Embaugh, Chief of Staff and Director, Bureau of Communications & Governmental Affairs
                 Bridget Depland, Interim Director, Bureau of Audit & Compliance Services/DCFS Audit Liaison
                 Angie Badeaux. LA-DCFS Licensing Program Director




Some Louisiana Family Child Day Care Home Providers DidNot Always Comply
With State Health and Safety Requirements C.f-06-1 3-0003/?                                                        22
